                                                      SENSITIVE BUT UNCLASSIFIED


                                               United States Department of State

                                            and the Broadcasting Board of Governors

                                                   Office of Inspector General

Office of Inspector General


                                             Office of Audits

                                      Middle East Region Operations



                                    Evaluation of Emergency Action Plans

                                            for Embassy Baghdad

                                   and Consulates General Basrah and Erbil


                                         Report Number AUD/MERO-12-18, January 2012




                                                                Important Notice

                               This report is intended solely for the official use of the Department of State of the
                               Broadcasting Board of Governors, or any agency or organization receiving a copy
                               directly from the Office of Inspector General. No secondary distribution may be
                               made, in whole or in part, outside the Department of State or the Broadcasting Board
                               of Governors, by them or by other agencies of organizations, without prior
                               authorization by the Inspector General. Public availability of the document will be
                               determined by the Inspector General under the U.S. Code, 5 U.S.C. § 552.Improper
                               disclosure of this report may result in criminal, civil, or administrative penalties.



                                                     SENSITIVE BUT UNCLASSIFIED

                               Spotlight: Evaluation of Emergency
                               Action Plans for Embassy Baghdad and
                               Consulates General Basrah and Erbil
                               Office of Inspector General
                               AUD/MERO/12-18




          Why OIG Conducted This Audit                       Objectives
          The Foreign Affairs Handbook                       The Office of Inspector General (OIG)
          requires all U.S. embassies and posts              conducted this audit to determine
          to prepare an emergency action plan                whether existing or definable resources
          (EAP) that provides procedures for                 were available and adequate to respond
          responding to foreseeable emergency                to emergencies, personnel under COM
          situations. Emergency situations can               authority were aware of the emergency
          differ depending on location and                   procedures, the EAP was effective as
          political stability in a particular region,        demonstrated by practice drills and
          so an EAP must be tailored to the                  exercises, and the EAP was current
          specific post.                                     and encompassed all personnel under
                                                             COM authority.

          What OIG Determined
          The Foreign Affairs Handbook requires U.S. embassies to maintain emergency action
          plans (EAP) to respond to emergency situations. OIG determined the Embassy
          Baghdad EAP was prepared in compliance with Department of State guidance and
          that embassy officials had identified the resources required to implement the EAP.
          Embassy Baghdad conducted emergency drills and used the results to improve
          emergency preparedness and responsiveness. Embassy staff has access to the online
          EAP, and all newly arriving employees receive training.(b) (5)




(b) (5)
                                                    United States Department of State
                                                    and the Broadcasting Board of Governors

                                                    Office of Inspector General




                                         PREFACE


     This report was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                           Harold W. Geisel
                                           Deputy Inspector General
                          SENSITIVE BUT UNCLASSIFIED


______________________________________________________________________________
Acronyms
COM         Chief of Mission

DOD         Department of Defense

DS         Bureau of Diplomatic Security

EAP         Emergency Action Plan

FAH         Foreign Affairs Handbook

OIG         Office of Inspector General




                          SENSITIVE BUT UNCLASSIFIED 

                                            SENSITIVE BUT UNCLASSIFIED



                                                         Table of Contents 

Section                                                                                                                                      Page

Executive Summary ........................................................................................................................ 1
 
Background ..................................................................................................................................... 1
 
Evaluation Objective....................................................................................................................... 3
 
Evaluation Results .......................................................................................................................... 3
 
           Embassy Baghdad’s Emergency Action Plan Was Adequate, 

                .................................................................................................................................. 3
 
           Emergency Action Plan Annexes Provided Guidance........................................................ 4
 
           Embassy Baghdad’s Emergency Action Plan Was Adequately Resourced and Tested ..... 4
 


Appendices
           A. Scope and Methodology................................................................................................ 8
 
           B. Contents of Embassy Baghdad Emergency Action Plan ............................................. 9 

           C. Embassy Baghdad Response ....................................................................................... 10 


Major Contributors to This Report ............................................................................................... 12
 
 




                                            SENSITIVE BUT UNCLASSIFIED 

                                           SENSITIVE BUT UNCLASSIFIED


                                                  Executive Summary
                  The Foreign Affairs Handbook (FAH)1 requires U.S. embassies throughout the world to
          maintain an emergency action plan (EAP) that provides procedures to respond to emergency
          situations such as bombs, fires, civil disorders, and evacuations. The Department of State, Office
          of Inspector General (OIG), conducted this evaluation to determine whether Embassy Baghdad
          and its constituent posts, Consulates General Basrah and Erbil, had comprehensive, up-to-date,
          and adequately tested EAPs. The scope of the evaluation was limited to five annexes contained
          in the U.S. Embassy Baghdad, Iraq, Emergency Action Plan.

                  OIG determined that the five annexes (C,“Civil Disorder,” D,“Internal Defense,”
          E,“Destruction of Sensitive Material,” G,“Hostage Taking,” and K,“Drawdown and
          Evacuation”) were prepared in compliance with Department of State (Department) guidance and
          that embassy officials had identified the resources required to implement the EAP. Specifically,
          Embassy Baghdad had conducted emergency drills and used the results of those drills to develop
          lessons learned and improve the level of emergency preparedness and responsiveness. Embassy
          staff had access to the EAP on the embassy Intranet site, and all newly arriving staff attended a
          mandatory security briefing in which the EAP was discussed.
(b) (5)




          1
              12-FAH-1, “Emergency Planning Handbook.”

                                                        1
                                           SENSITIVE BUT UNCLASSIFIED
                                     SENSITIVE BUT UNCLASSIFIED



                                                    Background
        The FAH2 requires that all U.S. embassies and posts prepare an EAP that provides
procedures for responding to foreseeable emergency situations. The emergency situations can
differ depending on location and political stability in a particular region, so an EAP must be
tailored to the specific post. An EAP generally consists of eight chapters, 12 annexes, and nine
appendices.

        The EAP chapters focus on the legal basis for the authorities and responsibilities for
emergency planning and on the organization and identification of personnel designated to fill
leadership roles for emergency response, and they describe actions needed for assisting a post’s
private U.S. citizen community during an emergency. The annexes contain information on how
posts should prepare for different types of emergency situations, which may differ from plan to
plan based on the post security environment. The appendices contain information such as
command and control locations, logistics and transportation, and facility information. (Titles of
chapters, annexes, and appendices for the Embassy Baghdad EAP are listed in Appendix B.)

        Department guidance3 for EAPs requires all posts to have an EAP and each EAP to be
reviewed annually and revised as needed. The guidance also requires each post to have an
Emergency Action Committee, which is responsible for preparing and updating the EAP. The
Emergency Action Committee includes subject matter experts representing key functions from
the mission. Emergency Action Committee members are appointed by the COM, who also
selects an Emergency Action Committee chairperson. The Emergency Action Committee’s
specific responsibilities include the following:

        Conducting vulnerability assessments to identify the post’s critical infrastructure assets to
         be protected.
        Assessing the post’s and host government’s capabilities and limitations for emergency
         response.
        Using the results of the capabilities and limitation assessments to draft the EAP.
        Developing the tripwires4 and actions to take when those events are met.
        Updating the EAP as required.

        To ensure uniformity, posts are required to use the Crisis and Emergency Planning
Application when preparing and updating their EAP. The Crisis and Emergency Planning
Application is a Web-based application designed to assist in the development of EAPs and
ensure compliance with the Emergency Planning Handbook. The Crisis and Emergency
Planning Application is designed to produce an EAP that complies with all 12-FAH-1
requirements, allowing embassies to copy and paste language from the 12-FAH-1 to their
respective EAP.



2
  Ibid. 

3
  Ibid. 

4
  Tripwires are events that activate, initiate, or set in motion plans to prevent harm to the post, its personnel, the U.S. 

citizen community, or other U.S. national interests. 


                                                  2
                                     SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


       Once the Emergency Action Committee certifies in the Crisis and Emergency Planning
Application that a section of the EAP is complete and accurate, the Crisis and Emergency
Planning Application automatically sends a copy of that section to the Bureau of Diplomatic
Security (DS) for review. After completing its review, DS notifies the post of the results. Once
the post addresses any substantive issues, DS publishes the unclassified portions of the EAP on
the DS Web site. The EAPs, including any classified portions, are posted to DS’s Secure On-
line User Resource and Communication Environment.

                                        Evaluation Objective
          The objective of this evaluation was to determine whether

               existing or definable resources were available and adequate to respond to
                emergencies covered by selected EAP annexes,
               personnel under COM authority were aware of the emergency procedures,
               the EAP was effective as demonstrated by practice drills and exercises, and
               the EAP was current and encompassed all personnel under COM authority.

       This evaluation is one of three reports concerning EAPs. This report focuses on the U.S.
Mission Iraq EAP. The two other reports will focus on U.S. Mission Afghanistan and U.S.
Mission Pakistan EAPs.

       As noted in Appendix A, “Scope and Methodology, the evaluation was limited to the
EAP annexes on civil disorder, internal defense, destruction of sensitive material, hostage taking,
and drawdown and evacuation, as these are the areas that are most relevant to recent events in the
Middle East.

                                         Evaluation Results

Embassy Baghdad’s Emergency Action Plan Was Adequate(b) (5)


        Embassy Baghdad’s EAP Annexes C, D, E, G, and K were prepared and tested in
accordance with FAH5 requirements. Specifically, the post had identified and made available the
resources needed to respond to the emergencies covered in the five annexes. In addition, the post
kept its staff informed of the emergency procedures and periodically conducted practice drills to
test and improve the EAP. (b) (5)




5
    12-FAH-1.

                                               3
                                  SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED





Emergency Action Plan Annexes Provide Guidance

       Embassy Baghdad’s EAP Annexes C, D, E, G, and K provide guidance to COM
personnel areas as follows:

         	 Annex C, “Civil Disorder” – This annex6 provides guidance for situations such as
            “general strikes, anniversaries of highly emotional incidents, major holidays . . . ,
            demonstrations, . . . curfews, or any other politically inspired activity that has the
            potential for violence, whether or not it is directed against U.S. personnel or
            premises.”
         	 Annex D, “Internal Defense” – This annex7 provides guidance “to safeguard”
            embassy or consulate employees “when an incident . . . requires an internal defense
            response.” Such incidents include “terrorism, mob action or political unrest,” and they
            “may occur without warning or as a result of days or weeks of increasing tension.”
         	 Annex E, “Destruction of Sensitive Materials” – This annex8 provides guidance
            aiming “to prevent classified national security information, as well as Sensitive But
            Unclassified (SBU) information and materials,9 from being compromised by reducing
            the quantity of classified and SBU material held at posts.”
         	 Annex G, “Hostage Taking” – This annex10 “provides guidance for dealing with a
            kidnapping or hostage taking of any U.S. citizen, . . . as well as dealing with a hostage
            barricade situation, other than an aircraft hijacking.” This annex includes a “Missing
            Person Information Card,” which should be filled out by the employee as part of the
            check-in process upon the employee’s arrival at post.
         	 Annex K, “Drawdown and Evacuation” – This annex11 provides guidance for posts to
            follow when a drawdown of post personnel or options for evacuation situations occur.
            According to the annex, “These include standing fast, allowing employees and
            [eligible] family members to depart post . . . as well as limiting the number of
            incoming staff,” and evacuation under Authorized Departure or Ordered Departure.

Embassy Baghdad’s Emergency Action Plan Was Adequately Resourced and Tested

        Embassy Baghdad’s EAP Annexes C, D, E, G, and K contained all information required
by the FAH (12 FAH-1). In addition, the post had identified and made available the resources
6
  Annex C-1.1, “Overview–Purpose.”

7
  Annex D-1.1(a) and (b), “Overview–Purpose.” 

8
  Annex E-1.1(a), “Overview–Purpose.”

9
  Sensitive But Unclassified information is information that is not classified for national security reasons but that 

warrants administrative control and protection from public or other unauthorized disclosure for other reasons. 

Sensitive But Unclassified material could include personal information, such as social security numbers, proprietary 

information, and law enforcement information. 

10
   Annex G-1.1(a) and (b), “Overview–Purpose.” 

11
   Annex K-1.1, Overview–Purpose.”


                                                4
                                   SENSITIVE BUT UNCLASSIFIED
                                       SENSITIVE BUT UNCLASSIFIED


      needed to respond to the emergencies covered by those annexes, kept staff informed of the
      applicable emergency procedures, and periodically conducted practice drills to test and improve
      the annexes. The resources made available included manpower, vehicles, equipment, and an
      agreement with DOD to provide security for COM personnel serving in Iraq. Each annex
      included points of contact for every emergency situation cited in the annex. OIG verified that
      the points of contact list contained accurate information, including names, position titles,
      telephone numbers, and email addresses. Annexes had detailed instructions to individuals or
      groups, including the incident commanders, the person receiving the threat, and the Emergency
      Action Committee.

              The post ensured that all staff was aware that the EAP was located on the post’s Intranet
      site. The post also conducted weekly testing of the public address system, the “Big Voice,”
      during which time specific instructions were given for every emergency type. The Regional
      Security Office requires all newcomers under COM to attend a mandatory security briefing. The
      OIG team attended this briefing and found that the Regional Security Office agent who provided
      the briefing discussed the EAP, pointed out its location on the post’s Intranet site, and asked
      everyone to review the EAP.

              Embassy Baghdad also conducts drills to test its response capabilities to attacks on the
      embassy and to make adjustments to the EAP based on lessons learned. For example, on
      March 11, 2011, the post conducted a mass casualty drill to provide embassy staff with skill sets
      and essential information for emergency situations and to lead to a more efficient and cohesive
      emergency response. Soon after, on May 15, 2011, an actual indirect fire attack took place on
      the post. Subsequently, the Regional Security Office identified weaknesses in the EAP that were
      exposed during the response to the drill and the attack and made recommendations to correct the
      weaknesses. For example, the Regional Security Office noted that a specific communications
      channel was overloaded with multiple reports of explosions from the same incoming rounds. The
      Regional Security Office implemented changes to avoid this type of problem from recurring.
      The post also conducted a safe haven drill on September 5, 2011, to meet the FAH12 requirement
      to conduct periodic safety and security drills. In addition, the Bureau of Information Resource
      Management conducts quarterly emergency destruction drills. Those quarterly drills meet the
      requirements of Annex E,13 which requires periodic drills and “reevaluation of destruction plans,
      particularly when new personnel, functions or equipment are involved.”
(b) (5)




      12
       12 FAH-1 H-765, “Post Drills.” 

      13
       Annex E, Addendum 2.1-3(5), “Preparations for Destruction and Recovery After Destruction–Actions of:

      Destruction of Automated Information Systems.”


                                                    5
                                       SENSITIVE BUT UNCLASSIFIED
          SENSITIVE BUT UNCLASSIFIED

(b) (5)




                       6

          SENSITIVE BUT UNCLASSIFIED

SENSITIVE BUT UNCLASSIFIED





             7

SENSITIVE BUT UNCLASSIFIED

                              SENSITIVE BUT UNCLASSIFIED



                                                                                      Appendix A
                                  Scope and Methodology
        The Office of Inspector General (OIG) initiated this work under the authority of the
Inspector General Act of 1978, as amended, to evaluate the Mission Iraq Emergency Action Plan
(EAP). This evaluation was limited to the EAP annexes on civil disorder, internal defense,
destruction of sensitive material, hostage taking, and drawdown and evacuation, as these are the
areas that are most relevant to recent events in the Middle East.

        To determine whether the EAP specified and defined resources, to determine the
existence and adequacy of those resources, and to determine whether the EAP was current, OIG
reviewed the relevant EAP annexes, obtained supporting documentation such as lists of safes and
shredders located on the Embassy Baghdad compound, and a list of armored vehicles. OIG also
conducted interviews with embassy staff from the Regional Security Office, the General Services
Office, the Fire Department, and the Deputy Chief of Mission.

        To determine the effectiveness of the EAP as demonstrated by practice drills and
exercises, OIG reviewed an after-action report of a mass casualty drill and an actual indirect fire
attack. OIG also reviewed emergency destruction drill logs. To determine whether the EAP
encompassed all Chief-of-Mission (COM) staff and whether staff was aware of emergency
procedures, OIG reviewed the relevant memorandums of agreement between the Department of
State and the Department of Defense for the latter to provide security for COM personnel serving
in Iraq. OIG also verified that the embassy briefs all incoming personnel on emergency
procedures and informs staff of the location of the EAP.

       The OIG team conducted this review in Baghdad, Iraq, with fieldwork conducted in Iraq
from June 2-18, 2011.

Review of Internal Controls

        OIG performed steps to assess the adequacy of internal controls related to access
controls. For example, the OIG team observed that only authorized personnel could access
restricted areas such as the Tactical Operations Center and the Regional Security Office.

Use of Computer-Processed Data

   OIG did not use computer-processed data for this evaluation.

    OIG conducted this performance review in accordance with the Quality Standards for
Inspection and Evaluation, issued in January 2011 by the Council of the Inspectors General on
Integrity and Efficiency. OIG believes that the evidence obtained provides a reasonable basis for
the findings and conclusions based on the review objective. OIG did not evaluate the quality of
Embassy Baghdad’s Emergency Action Plan.




                                           8
                              SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED



                                                                               Appendix B
              Contents of Embassy Baghdad Emergency Action Plan
Chapters

      100 - Legal 

      200 - Organization 

      300 - Consular Services 

      400 - Public Affairs 

      500 - Medical 

      600 - Mission Security 

      700 - Crisis Preparedness 

Annexes

       Annex A - Bomb
       Annex B - Fire
       Annex C - Civil Disorder
       Annex D - Internal Defense
       Annex E - Destruction of Sensitive Materials
       Annex F - Weapons of Mass Destruction
       Annex G - Hostage Taking
       Annex H - Hijacking
       Annex I - Assistance to U.S. Citizens is a Major Accident or Disaster
       Annex J - Assistance to Host Country in a Major Accident or Disaster
       Annex K - Drawdown and Evacuation
       Annex L - Receipt of Evacuees
       Annex M - Regional Reconstruction Team-Erbil
       Annex N - Crisis Preparedness for Americans under COM Authority


Appendices

       Appendix 1 - Master Contact List 

       Appendix 2 - Mission Organization for Emergencies 

       Appendix 3 - Command and Control Locations 

       Appendix 4 – Assembly and Movement Surveys 

       Appendix 5 - Medical Services Surveys 

       Appendix 6 - Logistics and Transportation 

       Appendix 7 - Communications 

       Appendix 8 - Unified Command 

       Appendix 9 - Facility Information 





                                         9
                            SENSITIVE BUT UNCLASSIFIED
          SENSITIVE BUT UNCLASSIFIED


                                       Appendix C




(b) (5)




                      10 

          SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED





            11 

SENSITIVE BUT UNCLASSIFIED

                            SENSITIVE BUT UNCLASSIFIED





Major Contributors to This Report
Carol N. Gorman, Deputy Assistant Inspector General
Middle East Region Operations
Office of Audits

David Bernet, Division Director
Middle East Region Operations
Office of Audits

Mohamed K. Abdou, Audit Manager
Middle East Region Operations
Office of Audits

Audrey Urbanczyk, Writer/Editor
Office of Audits

Kenneth A. Leonard, Auditor
Middle East Region Operations
Office of Audits

Elizabeth Waggoner, Program Analyst
Middle East Region Operations
Office of Audits




                                        12
                            SENSITIVE BUT UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
                 of Federal programs

            and resources hurts everyone.




         Call the Office of Inspector General

                      HOTLINE

                     202/647-3320

                  or 1-800-409-9926

        to report illegal or wasteful activities.



               You may also write to

             Office of Inspector General

              U.S. Department of State

               Post Office Box 9778

                Arlington, VA 22219


       Please visit our Web site at oig.state.gov


           Cables to the Inspector General

          should be slugged “OIG Channel”

              to ensure confidentiality.

SENSITIVE BUT UNCLASSIFIED





SENSITIVE BUT UNCLASSIFIED

